No. 20-937

In the
Supreme Court of the United States
ROBERT ANDREWS,
Petitioner,

v.
STATE OF NEW JERSEY,

Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
SUPREME COURT OF NEW JERSEY
BRIEF IN OPPOSITION

Gurbir S. Grewal
Attorney General of New Jersey
Jeremy M. Feigenbaum*
State Solicitor
Angela Cai
Deputy State Solicitor
Lila B. Leonard
Deputy Attorney General
Office of the Attorney General
of New Jersey
25 Market Street
Trenton, NJ 08625
(609) 984-6500
jeremy.feigenbaum@njoag.gov
* Counsel of Record

Theodore N. Stephens, II
Acting Essex
County Prosecutor
Frank J. Ducoat
Director, Appellate Section
Caroline C. Galda
Assistant Prosecutor
Office of the Essex County
Prosecutor
50 West Market St.
Newark, NJ 07102

i
QUESTION PRESENTED
Whether the Fifth Amendment’s foregone conclusion doctrine permits compelled decryption of Petitioner’s phones, when the State has a valid search
warrant for the phones’ contents.

ii
TABLE OF CONTENTS
QUESTION PRESENTED...........................................i
INTRODUCTION ........................................................ 1
STATEMENT OF THE CASE .................................... 3
REASONS FOR DENYING THE PETITION ............ 9
I. This Case Is A Poor Vehicle Because The
Court Lacks Jurisdiction. .................................... 10
II. This Case Does Not Implicate The Circuit
Splits Petitioner Alleges. ..................................... 14
III.The Decision Below Was Correct. ....................... 22
CONCLUSION .......................................................... 30

iii
TABLE OF AUTHORITIES
CASES
Barrett v. Acevedo,
169 F.3d 1155 (CA8 1999) ...................................... 26
Commonwealth v. Davis,
220 A.3d 534 (Pa. 2019) ......................................... 15
Commonwealth v. Gelfgatt,
11 N.E.3d 605 (Mass. 2014) ................................... 16
Cox Broadcasting Corp. v. Cohn,
420 U.S. 469 (1975) .................................... 10, 11, 12
Doe v. United States,
487 U.S. 201 (1988) ................................................ 27
Fisher v. United States,
425 U.S. 391 (1976) ........................................ passim
Flynt v. Ohio,
451 U.S. 619 (1981) ................................................ 12
Fort Wayne Books, Inc. v. Indiana,
489 U.S. 46 (1989) .................................................. 10
Gilbert v. California,
388 U.S. 263 (1967) ................................................ 27
In re Grand Jury Subpoena Duces Tecum
Dated Mar. 25, 2011,
670 F.3d 1335 (CA11 2012) ........................ 19, 20, 21
In re Grand Jury Subpoena Duces Tecum
Dated Oct. 29, 1992,
1 F.3d 87 (CA2 1993) .............................................. 26
In re Search of [Redacted],
317 F. Supp. 3d 523 (D.D.C. 2018) .................. 24, 27
Johnson v. California,
541 U.S. 428 (2004) .......................................... 10, 12

iv
Kimble v. Marvel Ent., LLC,
576 U.S. 446 (2015) ................................................ 27
Mills v. Alabama,
384 U.S. 214 (1966) ................................................ 11
Payne v. Tennessee,
501 U.S. 808 (1991) ................................................ 27
Pennsylvania v. Davis,
141 S. Ct. 237 (2020) ................................................ 1
Schmerber v. California,
384 U.S. 757 (1966) ................................................ 27
Seo v. State,
148 N.E.3d 952 (Ind. 2020) ............................ passim
State v. Diamond,
905 N.W.2d 870 (Minn. 2018) ................................ 27
State v. Pittman,
479 P.3d 1028 (Or. 2021) ....................................... 22
United States v. Apple MacPro Computer,
851 F.3d 238 (CA3 2017) .............................. 9, 19, 20
United States v. Doe,
405 U.S. 605 (1984) ................................................ 14
United States v. Hubbell,
530 U.S. 27 (2000) ............................................ 23, 24
United States v. Mendoza,
464 U.S. 154 (1984) ................................................ 22
United States v. Spencer,
2018 WL 1964588 (N.D. Cal. 2018) ................. 26, 27
United States v. Stone,
976 F.2d 909 (CA4 1992) ........................................ 26

v
STATUTES
28 U.S.C. § 1257(a) .................................................... 10
N.J. Stat. Ann. § 2C:29-1 ............................................ 5
N.J. Stat. Ann. § 2C:29-3a(2) ...................................... 5
N.J. Stat. Ann. § 2C:30-2 ............................................ 5
OTHER AUTHORITIES
Joseph Keller, How to Quickly Disable
FaceID and TouchID on iPhone and iPad,
iMore (May 30, 2020),
https://tinyurl.com/u7s363dt.................................. 28
Orin S. Kerr, Compelled Decryption And
The Privilege Against Self-Incrimination,
97 Tex. L. Rev. 767 (2019) ................... 23, 24, 25, 28
Pennsylvania v. Davis, No. 19-1254,
Pet. for Cert. (Apr. 20, 2020)................................ 1, 9
Pennsylvania v. Davis, No. 19-1254,
Br. in Opp. (July 28, 2020) ............................... 13, 16
Pennsylvania v. Davis, No. 19-1254,
Reply Br. (Sept. 21, 2020) ........................................ 1

INTRODUCTION
Six months ago, this Court denied a petition raising the questions presented here: whether the Fifth
Amendment’s foregone conclusion doctrine can apply
to an encrypted phone’s passcode, and if so, whether
the lodestar of the analysis is defendant’s knowledge
of the device’s passcode or contents. See Pet. for Cert.,
Pennsylvania v. Davis, No. 19-1254 (Apr. 20, 2020);
141 S. Ct. 237 (2020) (order denying certiorari). By the
time the Davis petitioner filed its reply brief, the New
Jersey Supreme Court had already issued the decision
below, and the Davis petitioner raised it as part of the
split alleged. See Reply Br. at 1-2, Pennsylvania v. Davis, No. 19-1254 (Sept. 21, 2020). But this Court denied certiorari in October 2020, and no intervening developments have happened since—that is, no new circuits or state supreme courts have weighed in.
Petitioner claims a different result is nevertheless
warranted, but he faces a significant threshold problem: Petitioner has not yet gone to trial, let alone been
convicted and sentenced. The lack of a final judgment
means this Court lacks jurisdiction to take up the case
on this posture. And there is no basis to treat this interlocutory state court decision as reviewable: while
the state courts below did decide that decryption of the
phone could be compelled, future proceedings before
the trial court may obviate the need for review of any
Fifth Amendment issues in this case. Petitioner may
claim that he no longer remembers the passcodes. The
phones may contain no evidence that materially adds
to the case against Petitioner. Or the jury may acquit
Petitioner of all charges, even after the State presents
its case. There is thus no basis for review at this time,
1

2
and at the very least, these factors confirm why this
case is a poor vehicle for review.
Even absent this threshold problem, review is not
warranted. Although Petitioner primarily urges certiorari to resolve two splits as to whether and how the
foregone conclusion doctrine applies to an encrypted
phone’s passcode, this case does not implicate either
one. Petitioner alleges a split over whether a suspect
could be required to verbally “communicate” the “pure
testimony” of his device’s passcode. Pet. 1, 2, 7. Yet in
this case, Petitioner will be allowed to directly enter
the passcode without divulging it—a situation Petitioner himself says does not implicate a split. And although Petitioner also asserts a subsidiary split over
whether the “conclusion” that must be “foregone” is a
defendant’s knowledge of his device’s passcode or his
knowledge of its contents, the court below determined
the result here would be the same either way. Because
relatively few courts have addressed the question presented to date, this Court can allow further percolation—and, if it sees fit, address these issues in a case
that more cleanly presents them.
Finally, the decision below was correctly decided
under precedent and first principles. For four decades,
this Court and lower courts have agreed that the act
of producing documents in response to a subpoena
does not run afoul of the Fifth Amendment when “the
existence and location of the papers are a foregone
conclusion.” Fisher v. United States, 425 U.S. 391, 411
(1976). That makes good sense: the testimony implied
by the act of production itself is only that the records
exist and the defendant possesses them. But if that is
information known to the State, the self-incrimination

3
concerns at the heart of the Fifth Amendment are not
implicated. And the same is true here. Whenever a
suspect enters his passcode, he is only confirming that
he, in fact, knows the code. If the government knows
as much, that suspect has not incriminated himself
and the Fifth Amendment is not offended. Whether
the State can then search the documents produced in
response to a subpoena, and whether it can search the
contents of a now-unlocked phone, become issues under the Fourth Amendment—as they involve no testimony at all. A contrary rule would elevate form over
substance, allowing the State to enforce a search warrant if a device is protected by biometrics but not by a
passcode. And it would offer those seeking to evade a
lawful search warrant a path to do so. That has not,
and has never been, the law.
STATEMENT OF THE CASE
1. Petitioner Robert Andrews was an officer in the
Essex County Sherriff’s Office (“ECSO”). Notwithstanding his duty to uphold the law, according to the
State’s allegations, Petitioner was actively aiding the
targets of a law enforcement investigation—divulging
whether, when, and how law enforcement was investigating them. Pet. 1a-3a, 78a.
The record reveals the following about the State’s
investigation so far, which is ongoing. In May 2015,
detectives with the Essex County Prosecutor’s Office
were investigating a narcotics-trafficking network in
Newark, New Jersey. During their surveillance, detectives watched their target, Quincy Lowery, operate
a motorcycle and Jeep. Detectives uncovered that both
vehicles were registered to Petitioner. Pet. 2a, 78a.

4
Detectives arrested Lowery for a variety of narcotics offenses on June 30, 2015. In a formal statement,
Lowery claimed that an officer in the ECSO, who he
knew only as “Bolo,” helped him conceal his drug trafficking. Lowery knew “Bolo” for about a year. Using a
photograph, Lowery identified Petitioner as “Bolo,”
the officer who helped him and others evade law enforcement. Pet. 1a-2a, 78a, 109a.
Lowery went on to explain that Petitioner assisted
him in his illicit operation in several ways: revealing
the identity of an undercover officer; warning Lowery
about various wiretaps and encouraging Lowery and
his affiliates to discard their phones; registering vehicles for Lowery; running license-plate numbers of a
vehicle Lowery believed was following him, which
turned out to be registered to the Essex County Prosecutor’s Office; and suggesting Lowery look for, and
get rid of, global positioning system devices under his
vehicles. Pet. 3a-5a, 78-79a.
Detectives confirmed much of Lowery’s statement
through a consensual search of Lowery’s phone. The
phone revealed the photo of the license plate Lowery
had texted to Petitioner. It also revealed a phone number Lowery had saved as “Bolo,” which corresponds to
the number of one of Petitioner’s phones. Lowery told
detectives that aside from in-person meetings, Petitioner would often use text messages or Facetime to
offer his assistance. Pet. 3-4a, 79a.
Later that night, ECSO’s Internal Affairs Department confronted Petitioner and asked him to surrender his two phones—an iPhone 5s and an iPhone 6
Plus. Petitioner handed over the two phones but refused to surrender the passcodes to them, or to input

5
them and allow Internal Affairs access. Pet. 3a, 79a.
Detectives obtained search warrants for the phones
from a judge on July 7, 2015, but could not open the
iPhones without the passcodes. Pet. 6a, 80a.
In June 2016, a grand jury returned a six-count indictment against Petitioner, charging him with two
counts of: second-degree official misconduct, N.J. Stat.
Ann. § 2C:30-2 (counts one and two); third-degree hindering apprehension, N.J. Stat. Ann. § 2C:29-3a(2)
(counts three and four); and fourth-degree obstruction
of the administration of law, N.J. Stat. Ann. § 2C:291 (counts five and six). Pet. 5a, 79a-80a.
Efforts to unlock the phones continued but failed.
Although detectives obtained search warrants, New
Jersey’s Telephone Intelligence Unit, the New York
Police Department’s Technical Services Unit, and Cellebrite, a private company, were unable to access the
phones’ contents. Left with no other option, the State
applied to the trial court for an order compelling Petitioner to grant them access. Pet. 6a. In support, the
State cited Lowery’s records, which showed 187 phone
calls and numerous text messages between Petitioner
and Lowery during the 30-day period before Lowery’s
arrest. But the State lacked the texts themselves because, on Petitioner’s advice, Lowery reset his phone
a month before his arrest. Pet. 80a, 110a.
2. The trial court granted the State’s motion, rejecting Petitioner’s defense that the Fifth Amendment
and New Jersey law barred any order that he enter or
supply his passcode. Pet. 99a-116a. Still, the court’s
order did not give the State unfettered access to Petitioner’s phones; access is limited “to that which is contained within (1) the ‘Phone’ icon[s] and application[s]

6
on [Petitioner’s] two iPhones and (2) the ‘Messages’
icon[s] and/or text messaging applications.” The order
requires the State to perform the search of the phones
in camera and in the presence of the judge and defense
counsel. Pet. 7a, 81a, 115a-116a.
Petitioner sought and was granted leave to file an
interlocutory appeal. Pet. 7a, 81a. The Superior Court
of New Jersey, Appellate Division, affirmed the trial
court order. See Pet. 77a-97a.
The Supreme Court of New Jersey affirmed. Pet.
1a-75a. As a threshold matter, the majority noted that
Petitioner “does not challenge the search warrants issued for his cellphones. He does not claim that the
phones were unlawfully seized or that the search warrants authorizing the State to comb their contents
were unsupported by probable cause.” Pet. 12a. “Neither,” the court added, “does defendant challenge the
particularity with which the search warrants describe
the ‘things subject to seizure.’” Id. It follows that “the
State is permitted to access the phones’ contents . . .
in the same way that the State may survey a home,
vehicle, or other place that is the subject of a search
warrant.” Pet. 12a-13a; see also Pet. 31a (“[T]he lawfully issued search warrants—the sufficiency of which
Andrews does not challenge—give [the State] the
right to the cellphones’ purportedly incriminating contents as specified in the trial court’s order.”). The only
issue was whether Petitioner had to enter or supply
his passcode so that the State could effectuate its lawful warrant.
The majority concluded that Petitioner could be required to enter or supply a passcode without running
afoul of the Fifth Amendment. The court explained

7
that its decision followed from the holding of Fisher v.
United States, 425 U.S. 391 (1976), which determined
that an individual could be required to make a production in response to a document subpoena for tax documents. According to Fisher, while the act of answering
a document subpoena had “communicative aspects,”
the act of production was of “minimal testimonial significance.” Id., at 412. In particular, Fisher reasoned
that because “the Government is in no way relying on
the ‘truth-telling’ of the taxpayer to prove the existence of or his access to the documents” by requiring
compliance with the subpoena, “the existence and location of the papers are a foregone conclusion and the
taxpayer adds little or nothing to the sum total of the
Government’s information by conceding that he in fact
has the papers.” Id., at 411. Thus, “no constitutional
rights are touched,” and “[t]he question is not of testimony but of surrender.” Id. (citation omitted).
The New Jersey Supreme Court concluded that the
same was true here: while it held that entering or supplying a passcode constitutes “a testimonial act of production,” the court held that the “foregone conclusion”
doctrine applied to this kind of act of production. Pet.
34a. After all, the court found, just as the conclusion
that was “foregone” in Fisher was the testimonial act
of producing a response to the subpoena rather than
the actual documents produced, so too the only “compelled act of production in this case [is] that of producing the passcodes.” Pet. 33a; see also Pet. 32a (noting
that under “the Supreme Court case law that gave rise
to the exception . . . the foregone conclusion test applies to the production of the passcodes themselves”).
And based on Fisher, there would be no constitutional

8
barrier “if the passcodes’ existence, possession, and
authentication are foregone conclusions.” Pet. 34a.
That analysis was satisfied in this case with “little
difficulty.” Id. As the majority found, “[t]he State established that the passcodes exist—they determined
the cellphones’ contents are passcode-protected. Also,
the trial court record reveals that the cellphones were
in [Petitioner’s] possession when seized and that he
owned and operated the cellphones, establishing his
knowledge of the passcodes and that the passcodes enable access to the cellphones’ contents.” Id. Moreover,
“to the extent that authentication is an issue in this
context, the passcodes self-authenticate by providing
access to the cellphones’ contents.” Id. 1 The recordbased “demonstration of the passcodes’ existence, [Petitioner’s] previous possession and operation of the
cellphones, and the passcodes’ self-authenticating nature render the issue here one of surrender, not testimony.” Pet. 34a-35a. Under Fisher, the Fifth Amendment presented no bar.
Finally, the majority added, “[a]lthough we reach
that decision by focusing on the passcodes, we note
that, in this case, we would reach the same conclusion
if we viewed the analysis to encompass the phones’
contents.” Pet. 35a. “The search warrants and record
evidence of the particular content that the State knew
the phones contained provide ample support for that

The court below noted that the parties did not raise authentication as an issue. See Pet. App. 8a, n.3.
1

9
determination.” Id. (citing United States v. Apple MacPro Computer, 851 F.3d 238, 248 (CA3 2017); Seo v.
State, 148 N.E.3d 952, 958 (Ind. 2020)). 2
Three justices dissented, reasoning that the foregone conclusion doctrine did not apply. Pet. 40a-75a.
This petition for certiorari followed.
REASONS FOR DENYING THE PETITION
Just as this Court denied certiorari in Pennsylvania v. Davis six months ago, the same result is proper
here—and nothing in this petition justifies a different
course. Most importantly, the interlocutory nature of
this petition means there is no state court final judgment for the Court’s review. While the state court decided the Fifth Amendment issue, actions yet to unfold
at the trial court may obviate the Court’s need to review that issue in this case—depriving this Court of
jurisdiction and making the petition at the very least
a poor candidate for certiorari. Further, this case does
not squarely present either split Petitioner identifies.
This Court should allow these Fifth Amendment questions to percolate—and if it sees fit, address the issues
in a case that better presents them. And in any event,
the court below correctly resolved the questions before
it by faithfully applying the foregone conclusion doctrine this Court discussed in Fisher.
2 The Court also concluded that although New Jersey’s common law privilege “offers broader protection than its federal
counterpart under the Fifth Amendment,” it does not protect Petitioner because any privacy considerations “have already been
. . . overcome through the unchallenged search warrants granted
in this case.” Pet. 39a-40a. The majority thus held that “neither
federal nor state protections against compelled disclosure shield
[Petitioner’s] passcodes.” Pet. 40a.

10
I.

This Case Is A Poor Vehicle Because The
Court Lacks Jurisdiction.

This Court’s jurisdiction to review state-court decisions is limited to “[f]inal judgments or decrees rendered by the highest court of a State in which a decision could be had.” 28 U.S.C. § 1257(a). But this petition arrives on an interlocutory posture. And it does
not fit into the “four categories of . . . cases in which
the Court has treated” a state interlocutory decision
on a federal issue “as a final judgment . . . without
awaiting the completion of the additional proceedings
anticipated in the lower state courts.” Cox Broadcasting Corp. v. Cohn, 420 U.S. 469, 477 (1975).
In the context of a state prosecution, “[t]he general
rule is that finality . . . is defined by a judgment of
conviction and the imposition of a sentence.” Fort
Wayne Books, Inc. v. Indiana, 489 U.S. 46, 54 (1989).
Here, neither has occurred, and Petitioner has therefore not met his burden to file a petition that “demonstrate[s] to this Court that it has jurisdiction to review
the judgment.” Johnson v. California, 541 U.S. 428,
431 (2004) (per curiam). Indeed, the lack of finality of
judgment is apparent from the proceedings that have
yet to take place. For one, Petitioner has yet to comply
with the trial court’s order and might claim that, given
the passage of time, Petitioner no longer remembers
his passcode; such a claim would have to be adjudicated based on a fact-intensive inquiry by a trial court.
For another, it is not certain whether the phones contain evidence that materially adds to the case against
Petitioner, or only includes evidence the State already
has. And finally, there remains the possibility that the

11
jury might acquit Petitioner of all charges, even after
the State presents evidence against him.
None of the exceptions under Cox Broadcasting—
which governs the review of state court judgments—
apply. First, this is not a case “where for one reason or
another the federal issue is conclusive or the outcome
of further proceedings preordained.” 420 U.S., at 479.
Each of the events described above are independent
ways in which the Fifth Amendment issues presented
would not determine the outcome of Petitioner’s case.
If Petitioner can no longer remember his passcode, if
there is no relevant additional evidence on the phones,
or if he is acquitted, the “outcome of further proceedings” is anything but “preordained” by a ruling on the
issue presented. Id. Moreover, this Court has only applied this exception to criminal trials in the extreme
situation where a defendant “concede[d]” that he committed the conduct of which he was accused and that
he “ha[d] no defense” in the trial court other than the
federal constitutional claim. Mills v. Alabama, 384
U.S. 214, 217 (1966). Petitioner has made no analogous concession in this case.
The second and third exceptions are inapplicable
for similar reasons. This case is not one in which “the
federal issue, finally decided by the highest court in
the State, will survive and require decision regardless
of the outcome of future state-court proceedings.” Cox,
420 U.S., at 480. If any of the above-mentioned scenarios occur, there will be no need for further review
of the Fifth Amendment issue. Nor is it one “in which
later review of the federal issue cannot be had, whatever the ultimate outcome of the case.” Id., at 481.
Even if Petitioner is convicted, he can “once more seek

12
review of his [Fifth Amendment] claim in the Supreme
Court of [New Jersey]—albeit unsuccessfully—and
then seek certiorari on that claim from this Court.”
Johnson, 541 U.S., at 431.
Finally, Petitioner’s claim also fails to satisfy the
fourth Cox exception, which involves matters “where
reversal of the state court on the federal issue would
be preclusive of any further litigation on the relevant
cause of action rather than merely controlling the nature and character of, or determining the admissibility of evidence in, the state proceedings still to come.”
Cox, 420 U.S., at 482-83. As discussed above, reversal
of the judgment below would not be “preclusive of any
further litigation”: the trial has yet to take place, and
proceedings there could obviate the federal issue entirely. Id. A decision on the Fifth Amendment question
might not even impact “the admissibility of evidence
in[] the state proceedings still to come,” as the phones
may not contain relevant or admissible evidence. And
because those criteria are not met, “a refusal immediately to review the state court decision” could not “seriously erode federal policy,” id., at 483, since the outcome of the instant case ultimately may not turn on
the question presented at all. In short, Petitioner can
“make no convincing claim of erosion of federal policy
that is not common to all decisions rejecting a defendant’s [Fifth Amendment] claim.” Johnson, 541 U.S. at
430. And a “contrary conclusion would permit the
fourth exception to swallow the rule. Any federal issue
finally decided on an interlocutory appeal in the state
courts would qualify for immediate review.” Flynt v.
Ohio, 451 U.S. 619, 622 (1981).

13
At the very least, the interlocutory posture of this
case presents vehicle problems that counsel strongly
against review. As laid out above, a number of issues
have yet to be aired in future state court proceedings.
Some are the very same considerations at play when
this Court denied the most recent petition implicating
compelled decryption. See Br. in Opp. at 10, Pennsylvania v. Davis, No. 19-1254 (July 28, 2020) (explaining that Davis was “an inappropriate vehicle” to address Fifth Amendment questions because the “record
is unclear” as to whether that defendant “even remembered the password in question”); id., at 10-11 (adding
certiorari is unwarranted “because this case arises on
an interlocutory appeal,” such that “there is no basis
to say whether the evidence the Commonwealth seeks
is actually important to secure a conviction”). Because
many of the same vehicle problems exist here as were
present in Davis, the same result should follow.
And this case contains vehicle problems that go beyond the ones in Davis. As explained infra at 15-17,
Petitioner’s position is that there is a conflict among
the lower courts as to whether a suspect can be required to verbally disclose the passcode to an encrypted device; but Petitioner does not believe a split
exists as to entering that password directly into such
a device. See Pet. 17. The petition argues, in particular, that verbal disclosure is especially troubling—and
the court below erred in holding otherwise—because
“the government would . . . learn the contents of the
password itself, and plainly the government does not
possess that information at all.” Pet. 29 n.15. But none
of that would be true if Petitioner directly enters his
passcode in subsequent proceedings, as the State confirmed below would be entirely acceptable. See infra

14
at 17. Moreover, none of Petitioner’s analysis accounts
for the State’s promise of use immunity, which at the
very least would deprive the State of using any information learned regarding “the contents of the password itself.” See generally Fisher, 425 U.S., at 400;
United States v. Doe, 465 U.S. 605, 617 n.17 (1984). So
not only is the case interlocutory, but further proceedings may meaningfully change—and at least inform—
the constitutional issues before this Court.
This Court has often declined to review cases that
arrive in an interlocutory posture. This petition confirms the wisdom of that approach.
II.

This Case Does Not Implicate The Circuit Splits Petitioner Alleges.

Petitioner alleges two splits regarding the extent
and application of the Fifth Amendment: whether the
foregone conclusion doctrine can require disclosure of
an encrypted device’s passcode, and if so, whether the
lodestar of that analysis turns on the device’s passcode
or its contents. But the instant case, especially on the
current interlocutory posture, does not implicate either split. This Court can and should wait for a vehicle
that better presents the Fifth Amendment issues before deciding whether to address them.
1. Petitioner alleges a split as to whether the foregone conclusion doctrine can ever allow a State to “demand that Petitioner provide pure testimony” by “communicat[ing] his memorized passcodes to the prosecutor.” Pet. 1. Because Petitioner errs in portraying this
case as a dispute about “pure testimony,” he also errs
in claiming the split will be implicated here.

15
Petitioner relies almost entirely on the Pennsylvania Supreme Court’s decision in Commonwealth v.
Davis, 220 A.3d 534 (2019). As Petitioner rightly recounts, Davis examined a defendant’s challenge to a
court order compelling him to “divulge the passcode”
to his computer, which was seized in the course of a
child pornography investigation. Id., at 539. The question in that case was whether the defendant could be
compelled to verbally communicate his passcode. Id.,
at 540. The Pennsylvania Supreme Court held that
the “revealing of a computer password is a verbal communication,” and declined to apply the foregone conclusion doctrine to its disclosure on that basis. Id., at
548. That is the heart of Petitioner’s claim of a split—
that “on indistinguishable facts,” Pennsylvania prosecutors cannot “compel[] oral statements” of someone’s
encrypted device passcode, but the prosecutors in this
case can and will do so. Pet. 10.
Petitioner acknowledges, however, that there is no
split as to whether a defendant can be required to actually enter the passcode into his encrypted device directly—without divulging the passcode to the prosecution. See Pet. 17 (noting a distinct line of cases, separate from Davis, “involve orders compelling a suspect
to enter a passcode directly into a device, rather than
communicate it directly to the state or the court”). Petitioner is right to do so: the Court in Davis specifically
stated that whether defendants can be required to input a passcode (without divulging it) into their device
was “not at issue in th[at] appeal.” 220 A.3d, at 541.
The respondent in Davis made the same point in successfully opposing certiorari—that there is no conflict
between Davis’s prohibition on verbal disclosures and

16
decisions affirming orders requiring individuals to enter passcodes. See Br. in Opp. at 4, Pennsylvania v.
Davis, No. 19-1254 (July 28, 2020) (noting those cases
“all involve the distinct legal and factual situation of
a demand to produce decrypted versions of encrypted
documents or to ‘unlock’ a device by typing in the password, without disclosing the password to the government”). And the respondent in Davis explicitly argued
that there was no lower court conflict on that separate
question of entry. Id. 3
But the distinction Petitioner himself is drawing—
between verbal disclosure (with a split) and direct entry (splitless)—undermines his case for certiorari. Because this petition is on an interlocutory posture, Petitioner has not had to comply with any court order.
Petitioner insists that he will have to “honestly communicate, from his internal thoughts, his memorized
3 An example of cases involving entry is Commonwealth v.
Gelfgatt, 11 N.E.3d 605, 613 (Mass. 2014), in which the Massachusetts Supreme Judicial Court applied the foregone conclusion
doctrine to an order that defendant unlock his device. Digital forensic examiners discovered file names on a defendant’s computer that implicated him in fraud, but those files were passcodeprotected and inaccessible. Id. The court concluded that any facts
conveyed by a defendant through his act of decryption, namely
“his ownership and control of the computers and their contents,
knowledge of the fact of encryption, and knowledge of the encryption key,” were already “known to the government, and thus, are
a ‘foregone conclusion.’” Id., at 615. As a result, that court concluded, the Fifth Amendment was no obstacle to an order requiring the defendant to input the applicable passcode. Id. Petitioner
suggests that the Indiana Supreme Court “would line up” against
Gelfgatt and the decision below on issues concerning entry, but
Petitioner’s language is appropriately conditional, as it relies on
dicta rather than a holding by that court. Pet. 9 (emphasis added)
(citing Seo, 148 N.E.3d, at 957-58).

17
passcodes” through “pure testimony.” Pet. 7. The record, however, establishes the opposite—that the State
will permit Petitioner to enter his passcode without
sharing it with anyone. At argument below, the State
stressed this manner of compliance, noting:
•
•
•

•
•

“We don’t want to know the pass[codes]. We just
want defendant to enter them.”
“We are not going to know the pass[code].”
“We’re not asking the defendant to reveal his
passcode . . . What we’re allowing the defendant
to do here is enter the passcode himself . . . [The
defendant] doesn’t have to say it out loud.”
“[The government will] never hear [the iPhone
passcode] from the defendant [and will] never
have it written down.”
“[Defendant will be] entering the passcode, not
revealing it.” 4

Because the State is seeking only Petitioner’s action
in unlocking his devices, this interlocutory case will
not present the disagreement as to whether he can be
required to verbally disclose that passcode.
To be sure, the decision below did allow the State
to pursue either means of compliance—finding constitutional an order that Petitioner divulge his encrypted
device’s passcode or an order that he enter it. See Pet.
31a (concluding that “[c]ommunicating or entering a
passcode” are “testimonial acts of production”); Pet. 17

4 The recordings of the argument before the New Jersey Supreme Court can be found at https://tinyurl.com/vzssfkb2. The
State’s representations above can be found at 0:01:04-08, 0:08:3335, 0:33:30-38, 0:34:46-49, and 0:39:15-18, respectively.

18
(“The court below treated these two scenarios as indistinguishable.”). And the court did expressly disagree
with the holding in Davis as to verbal disclosures of
passcodes. Pet. 24a-27a, 33a. But this Court sits to resolve concrete controversies where the facts implicate
them—not abstract disagreements that will not affect
the result in a specific case. Because the record makes
clear Petitioner can comply by entering his passcode,
this is not the appropriate posture for addressing the
first split as Petitioner himself frames it.
2. Petitioner alleges a second split as to whether, if
the foregone conclusion doctrine applies, the government must prove it is a foregone conclusion that a defendant knows the device’s passcode or its contents.
That dispute is likewise not implicated here.
The basic contours of the dispute are clear. As the
New Jersey Supreme Court recognized, if the foregone
conclusion doctrine applies, a court must still decide
what “conclusion” must be “foregone.” Under one perspective, the question is “whether the Government already knows the testimony that is implicit in the act
of production”—i.e., it is already aware the defendant
“know[s] the password for these devices.” Pet. 30a (citation omitted). Another camp believes the inquiry
must focus instead on “what the police already knew
would be found on those devices”—i.e., that the foregone conclusion analysis focuses on knowledge of the
device’s contents, not its passcode. Id.
Petitioner’s second split relies on this dichotomy.
In the decision below, Petitioner rightly explains, the
court found the proper “focus[]” was “the passcodes.”
Pet. 35a. That is, the court held the State satisfied its

19
burden under the Fifth Amendment’s foregone conclusion doctrine by showing that Petitioner unquestionably possessed the encrypted devices at issue and knew
their passcodes—so that the State gained no information of testimonial value by seeing him input it or
by having him share it. Pet. 34a. Petitioner emphasizes that two courts reached a different conclusion—
that the foregone conclusion doctrine relates to a device’s contents, not its passcode. See Seo, 148 N.E.3d,
at 958 (finding that the government must show that it
knew “(1) Seo knows the passcode for her iPhone; (2)
the files on the device exist; and (3) she possessed
those files”); In re Grand Jury Subpoena Duces Tecum
Dated Mar. 25, 2011, 670 F.3d 1335, 1346 (CA11 2012)
(“Mar. 25 Subpoena”) (describing as the relevant question if the “Government knows whether any files exist
and are located on the hard drives”). 5
The problem for Petitioner, however, is that the
New Jersey Supreme Court explicitly found this dispute was not outcome-determinative in this case. Put
5 Petitioner also suggests a split between the New Jersey Supreme Court and Third Circuit, but that is incorrect. Apple MacPro did not decide the proper application of the forgone conclusion exception. That court was constrained to a plain-error analysis, and held the district court had not committed plain error in
determining that the government met the elements forgone conclusion doctrine as applied to the contents of the device. 851 F.3d,
at 245-47. But the panel did not hold the focus had to be on contents, and instead acknowledged “a very sound argument can be
made that the ‘foregone conclusion’ doctrine properly focuses on
whether the Government already knows the testimony that is
implicit in the act of production”—namely, whether a suspect’s
“knowledge of the password itself is sufficient to support application of the foregone conclusion doctrine.” Id., at 248 n.7.

20
another way, although Petitioner emphasizes the importance of resolving whether the foregone conclusion
doctrine should focus upon the passcode or the files on
an encrypted device, he overlooks that the court below
held the State met its burden either way—even relying on the cases Petitioner says form the other side of
the split. See Pet. 35a (“Although we reach that decision by focusing on the passcodes, we note that, in this
case, we would reach the same conclusion if we viewed
the analysis to encompass the phones’ contents.”) (citing Apple MacPro, 851 F.3d, at 248 & n.7; Seo, 148
N.E.3d, at 958). Because the majority concluded that
“the result is the same” in this particular case regardless of “whether the inquiry is limited here to the
passcodes or extended to the phones’ contents,” Pet.
40a, resolution of the second split Petitioner alleges
will not change the result in his case.
A comparison of the facts in this case to the facts
in Seo and Mar. 25 Subpoena easily justify the different results in those cases and in this one. In Mar. 25
Subpoena, the court determined that the doctrine applied to the contents of the computer, and that the government had not met the threshold of the doctrine because “[n]othing in the record before us reveals that
the Government knows whether any files exist and
are located on the hard drives; what’s more, nothing
in the record illustrates that the Government knows
with reasonable particularity that [the defendant] is
even capable of accessing the encrypted portions of the
drives.” 670 F.3d, at 1346. And in Seo, the court likewise held “the State has failed to demonstrate that
any particular files on the device exist or that [the suspect] possessed those files,” relying in part on a detec-

21
tive’s confirmation “that he would be fishing for ‘incriminating evidence’ from the device.” 148 N.E.3d, at
958; see id., at 960 (expressing concerns about “unbridled access to potential evidence” on the phone).
As the New Jersey Supreme Court found, the record in this case is markedly different. As the majority
laid out, “the search warrants and record evidence of
the particular content that the State knew the phones
contained provide ample support” for its request even
relative to the phones’ contents. Pet. 35a. Among other
things, a co-conspirator testified before the grand jury
about the content on Petitioner’s phones; content recovered from that co-conspirator’s phone corroborates
his testimony; and records from Petitioner’s phones’
service provider show frequent contact between Petitioner and his co-conspirator during the timeframe
the co-conspirator claims. See Pet. 35a (noting, unlike
in Seo, “this was no fishing expedition”). Of course, Petitioner disagrees with the conclusion below that he
would still lose under that alternative standard. But
there is no reason for this Court to address such a factbound question—which is why Petitioner does not include it as a question presented here. Instead, there is
every reason to decline to adjudicate which standard
applies in a case where it will not change the lower
court’s ultimate conclusion.
That renders this entire petition unworthy of certiorari. After all, the two issues are related—which is
why Petitioner frames them under a single question.
Indeed, as Petitioner notes, if this Court “rules against
Petitioner on the first issue”—that is, finds the foregone conclusion doctrine applies—“it will then need to
resolve what the government must show to satisfy the

22
exception in this setting.” Pet. 16. Otherwise, uncertainty will persist in the lower courts. Because this
presents a poor vehicle for addressing the second split
(for all the reasons given above), it logically is a poor
vehicle for taking up the entire case.
3. There is also no reason for this Court to take up
these issues in a case that fails to effectively present
them. After all, a relatively limited number of courts
have addressed the Fifth Amendment issues to date—
four state supreme courts and the Eleventh Circuit. 6
As this Court has recognized, it receives great benefit
“from permitting several courts of appeals [and/or several state supreme courts] to explore a difficult question before this Court grants certiorari.” United States
v. Mendoza, 464 U.S. 154, 160 (1984). That is particularly true when the petition does not squarely implicate the conflicts, and where other courts are poised to
resolve these questions. With the landscape no different than when this Court declined to hear Davis this
term, further percolation remains warranted.
III.

The Decision Below Was Correct.

The New Jersey Supreme Court correctly rejected
Petitioner’s Fifth Amendment claim. Its decision follows from precedents and first principles alike.

6 The Oregon Supreme Court decided the issue on state constitutional grounds. See State v. Pittman, 479 P.3d 1028, 1043,
1051 (Or. 2021) (holding the State had not met the “narrow circumstances” under which it could compel a defendant to unlock
his phone under Oregon’s constitution). And as noted above, supra 19 n.5, the Third Circuit did not resolve the issues raised.

23
1. Begin with this Court’s cases. As this Court has
held, the “foregone conclusion” doctrine exempts a testimonial act of production from Fifth Amendment protection if the facts communicated by the act of production itself are already known to the government, such
that the individual “adds little or nothing to the sum
total of the Government’s information.” Fisher, 425
U.S., at 411. For the doctrine to apply, the government
must establish its knowledge of (1) the existence of the
evidence demanded; (2) the possession or control of
that evidence by the defendant; and (3) the authenticity of the evidence. See id., at 410-13.
Critically, each time that the Court has applied the
foregone conclusion doctrine, it has evaluated the testimony inherent in the act of producing documents itself, not the contents of the documents ultimately provided. See id., at 409-10 (contrasting the nontestimonial nature of the taxpayer’s documents with the testimonial significance of producing the documents); see
also United States v. Hubbell, 530 U.S. 27, 40 (2000)
(holding that “[t]he ‘compelled testimony’ that is relevant in this case is not to be found in the contents of
the documents produced . . . [i]t is, rather, the testimony inherent in the act of producing those documents”); Pet. 32a (explaining this Court’s precedents
“explicitly predicate the applicability of the foregone
conclusion doctrine on the fundamental distinction between the act of production and the documents to be
produced”); Orin S. Kerr, Compelled Decryption And
The Privilege Against Self-Incrimination, 97 Tex. L.
Rev. 767, 776-78 (2019) (emphasizing this distinction
in this Court’s case law).

24
The New Jersey Supreme Court applied that rule
here. The court determined that the compelled decryption ordered by the trial court was “a testimonial act
of production,” like providing documents in response
to a subpoena is a testimonial act of production. Pet.
31a; see Hubbell, 530 U.S., at 45. The majority also
rightly held it “problematic to meld the production of
passcodes with the act of producing the content of the
phones”—reiterating that, “[f]or purposes of the Fifth
Amendment privilege against self-incrimination, the
act of production must be considered in its own right,
separate from the documents sought.” Pet. 21a, 31a.
When an individual enters the passcode to her phone,
to the extent that act is testimonial at all, she confirms
only that she knows the passcode; the separate question of whether the government can access the files
contained therein is a matter for the Fourth Amendment. Pet. 32a-33a; see also Kerr, Compelled Decryption, 97 Tex. L. Rev., at 779 (“‘I know the password’ is
the only assertion implicit in unlocking the device.”). 7
In short, based on this Court’s “current doctrine,” the
“Fifth Amendment poses no barrier to compelled decryption [of an encrypted device] as long as the government has independent knowledge that the suspect
7 This conclusion is the only reasonable one, in part because
Petitioner has “non-inculpatory explanations” for being able to
access the device such as, “although I have access to it, that device ... [or] its contents are not mine.” In re Search of [Redacted],
317 F. Supp. 3d, at 535 n.9. Petitioner could know the passcodes
because the phones belong to a significant other, family member,
or close friend. Kerr, Compelled Decryption, 97 Tex. L. Rev., at
779. Ultimately, the State must show not only that Petitioner
had possession and control over the devices, but that he had possession and control over the devices at the time any incriminating texts or calls were sent from them.

25
knows the password and the government presents the
password prompt to decrypt the device to the suspect.”
Kerr, Compelled Decryption, 97 Tex. L. Rev., at 769.
In addition to correctly holding that the government’s burden is to show Petitioner’s knowledge of the
passcode is a foregone conclusion, the court below correctly held the State met that burden here. First, the
State established knowledge of the passcodes’ existence because “the cellphones’ contents are passcodeprotected” and cannot otherwise be accessed. Pet. 34a.
Second, “the trial court record reveals that the cellphones were in [Petitioner]’s possession when seized
and that he owned and operated the cellphones, establishing his knowledge of the passcodes and that the
passcodes enable access to the cellphones’ contents.”
Id. Finally, even assuming “authentication is an issue
in this context, the passcodes self-authenticate by
providing access to the cellphones’ contents.” Id. The
court had “little difficulty concluding that compelled
production of the passcodes falls within the foregone
conclusion exception.” Id.
Contrary to Petitioner’s proposal, Pet. 26-29, there
is simply no basis to distinguish the application of this
Court’s decisions by cabining them to business records
or to non-digital evidence. Such limitations make no
doctrinal or logical sense. After all, the Fifth Amendment’s foregone conclusion doctrine applies to testimonial acts of production, which does not turn on the
business or non-digital nature of the documents being
provided. Said another way, that documents are business documents, or are in digital instead of hard-copy
form, is irrelevant to whether a particular act of production itself “adds little or nothing to the sum total

26
of the Government’s information.” Fisher, 425 U.S., at
411. In fact, the distinctions Petitioner would have the
Court draw are irrelevant to testimonial implications
entirely—the heart of the Fifth Amendment analysis.
See, e.g., United States v. Spencer, No. 17-259, 2018
WL 1964588, at *2 (N.D. Cal. 2018) (explaining that
“whether turning over material, either in the form of
documents or bits, implicates the Fifth Amendment
should not turn on the manner in which the defendant
stores the material”).
And cabining Fisher in the way that Petitioner proposes risks reverberations that go beyond this case—
as lower courts have relied on this doctrine in different
contexts that do not implicate business records. See,
e.g., United States v. Stone, 976 F.2d 909, 911 (CA4
1992) (concluding that while a defendant’s utility bills
were “documents [that] are personal, they are unprotected by the privilege against self-incrimination because their existence, possession, and authentication
are a ‘foregone conclusion’”); Barrett v. Acevedo, 169
F.3d 1155, 1168 (CA8 1999) (requiring production of
journal that defendant had already admitted owning
and authoring); In re Grand Jury Subpoena Duces Tecum Dated Oct. 29, 1992, 1 F.3d 87, 93 (CA2 1993) (allowing government to compel production of appointment book calendar, reasoning that the Government
already had a photocopy of the calendar, although it
suspected portions were whited out before being copied). These examples demonstrate that the doctrine
can logically and faithfully be applied to non-business
record cases—and undermine any basis for cabining
Fisher to its facts.

27
Petitioner also urges this Court to overrule Fisher
and its progeny. But “[o]verruling precedent is never
a small matter. Stare decisis . . . is ‘a foundation stone
of the rule of law.’” Kimble v. Marvel Ent., LLC, 576
U.S. 446, 455 (2015). Undoing forty years of doctrine
will disturb the “preferred course [that] promotes the
evenhanded, predictable, and consistent development
of legal principles, fosters reliance on judicial decisions, and contributes to the actual and perceived integrity of the judicial process.” Id. (citing Payne v. Tennessee, 501 U.S. 808, 827-28 (1991)).
2. First principles are in accord. While Petitioner
makes much of the import of developments in technology, Pet. 18-22, the court below properly recognized
that his argument puts the form of compelled decryption over the constitutionally relevant substance. Just
as a suspect can be compelled to give an accurate voice
or handwriting sample, see Gilbert v. California, 388
U.S. 263, 266 (1967); subject himself to a blood sample
drawing, see Schmerber v. California, 384 U.S. 757,
764-65 (1966); or sign a document executing a bank
authorization to disclose records to the government,
see Doe v. United States, 487 U.S. 201, 215 (1988), suspects can be required to provide biometric data like a
fingerprint or a face scan. See Pet. 33a. But “holding
passcodes exempt from production whereas biometric
device locks may be subject to compulsion creates inconsistent approaches based on form rather than substance.” Pet. 33a.; see State v. Diamond, 905 N.W.2d
870, 871-72 (Minn.), cert. denied, 138 S. Ct. 2003
(2018); In re Search of [Redacted], 317 F. Supp. 3d 523,
533 (D.D.C. 2018); Spencer, 2018 WL 1964588, at *2.
Allowing one but not the other would not be consistent
with the purposes underlying the Fifth Amendment,

28
because both actions accomplish the same relevant result (unlocking a phone) and communicate the exact
same information to the government (that the defendant has the ability to unlock the phone).
Doing so would also allow an individual wishing to
conceal evidence of a crime to purposefully erect a
“non-substantive barrier” out of information that is “of
no testimonial interest to the government” in order to
prevent law enforcement from “execut[ing] otherwise
lawful searches” that comply with the Fourth Amendment. Kerr, Compelled Decryption, 97 Tex. L. Rev., at
767. Simply put, individuals seeking to evade a lawful
search warrant can intentionally (and quickly and
easily) disable biometric accessibility in order to render a device’s contents unavailable to law enforcement. See Joseph Keller, How to Quickly Disable
FaceID and TouchID on iPhone and iPad, iMore (May
30, 2020), https://tinyurl.com/u7s363dt.
Petitioner himself has attempted to shape such a
“non-substantive barrier” out of his passcode, leaning
on the private nature of cell phones to shield his device
from law enforcement access. This approach inappropriately “imports Fourth Amendment privacy principles into a Fifth Amendment inquiry.” Pet. 32a. In
short, the Fifth Amendment prohibits “compelled selfincrimination,” but “not (the disclosure of) private information” writ large. Fisher, 425 U.S., at 401 (emphasis added). Reading the Fifth Amendment as a “general protector of privacy” for the underlying documents law enforcement wishes to search would “completely loose [it] from the moorings of its language.”
Id. Instead, privacy for the materials on the phone is

29
“addressed in the Fourth Amendment,” which appropriately limits law enforcement access to them. Id.
But here, there is no Fourth Amendment issue; Petitioner has never “challenge[d] the search warrants issued for his phone.” Pet. 12a. Because the instant
passcode itself is (all agree) “of no testimonial interest
to the government,” the Fifth Amendment does not
bar a search the Fourth Amendment allows.
Far from implicating grave privacy concerns, then,
this case turns solely on the Fifth Amendment privilege against self-incrimination. Ultimately, the act of
unlocking Petitioner’s phones itself adds nothing to
the government’s knowledge against him. Compelling
Petitioner to unlock his device is thus consistent with
the Fifth Amendment, and it does nothing more than
allow the government to effectuate a search warrant
it validly obtained.

30
CONCLUSION
This Court should deny the petition.
Respectfully submitted,
Gurbir S. Grewal
Attorney General
of New Jersey
Jeremy M. Feigenbaum*
State Solicitor
Angela Cai
Deputy State Solicitor
Lila B. Leonard
Deputy Attorney General
Office of the Attorney
General of New Jersey
Theodore N. Stephens, II
Acting Essex County
Prosecutor
Frank J. Ducoat
Director, Appellate Section
Caroline C. Galda
Assistant Prosecutor
Office of the Essex County
Prosecutor
April 2, 2021

